<html>
<title> - LESSONS LEARNED FROM THE BOSTON MARATHON BOMBINGS: IMPROVING INTELLIGENCE AND INFORMATION SHARING</title>
<body><pre>[Senate Hearing 113-444]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-444

 
                    LESSONS LEARNED FROM THE BOSTON

                      MARATHON BOMBINGS: IMPROVING

                  INTELLIGENCE AND INFORMATION SHARING
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             APRIL 30, 2014

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
89-528                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

               John P. Kilvington, Acting Staff Director
           Jason M. Yanussi, Senior Professional Staff Member
            Harlan C. Geer, Senior Professional Staff Member
          Jason T. Barnosky, Senior Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
         Daniel P. Lips, Minority Director of Homeland Security
          William H.W. McKenna, Minority Investigative Counsel
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
    Senator Ayotte...............................................     9
Prepared statements:
    Senator Carper...............................................    19

                               WITNESSES
                       Wednesday, April 30, 2014

Hon. I. Charles McCullough III, Inspector General of the 
  Intelligence Community, Office of the Director of National 
  Intelligence; accompanied by Hon. John Roth, Inspector General, 
  U.S. Department of Homeland Security Richard Serino, Deputy 
  Administrator, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security; Michael E. Horowitz, Inspector 
  General, U.S. Department of Justice; and Hon. David B. Buckley, 
  Inspector General, Central Intelligence Agency.................     4

                                APPENDIX

Prepared joint statement of the Inspectors General...............    21


                    LESSONS LEARNED FROM THE BOSTON



                      MARATHON BOMBINGS: IMPROVING



                  INTELLIGENCE AND INFORMATION SHARING

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper, Coburn, Johnson, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The hearing will come to order.
    We want to welcome our witnesses and our other guests here 
this morning. Thank you for coming. Thank you for your 
preparation for your testimony and for your willingness to 
respond to our questions.
    It has been, as we know, just over a year since the 
cowardly attack on the Boston Marathon. Today's hearing is an 
opportunity for us to review what lessons have been learned 
from the actions and events leading up to the attack in order 
to prevent, to the greatest extent possible, a similar incident 
from ever happening again.
    We do this, in part, to honor the memory of the four people 
killed that day in April of last year as well as the sacrifices 
that have been made by nearly 300 people injured during those 
attacks. In particular, we mourn with friends and families of 
those killed on April 15, 2013, Krystle Marie Campbell, Martin 
William Richard, Lu Lingzi, and for the Massachusetts Institute 
of Technology (MIT) police officer who was slain, Sean Collier, 
shot by the suspects 3 days later.
    This is our Committee's second hearing on the Boston 
Marathon bombing. It is part of our ongoing oversight to 
understand what went right that fateful day and what we can do 
better. Our first hearing focused on preparedness and response 
and found, by and large, that the State of Massachusetts, the 
city of Boston, and the surrounding communities were extremely 
well trained, coordinated, and prepared. In my view, this was 
due in no small part to the assistance provided by the 
Department of Homeland Security (DHS) through Federal grants.
    Our focus today is different. We will examine the 
intelligence collection and information sharing by U.S. 
agencies with respect to the Tsarnaev family both before and 
after the attack to see what lessons we can learn. I often say 
that everything I do, I know I can do better. I think that is 
true of all of us, and I think it is true for most Federal 
programs. It is also true of counterterrorism activities that 
we are going to be discussing this morning.
    My sense is that our information sharing systems work well, 
but having said that, I know we can always improve on them. 
Identifying and deterring terrorist plots by lone wolves and 
the Tsarnaev brothers is extremely challenging, but we need to 
continue to refine our efforts to help identify these types of 
people before the attack and before lives are lost.
    I want to thank our four Inspectors General (IGs), one who 
is brand new on the job. Mr. Roth, it is very nice to see you 
sitting here as a confirmed Inspector General. We want to thank 
you for being with us today. We want to thank your staffs who 
have worked diligently over the past year to complete this 
report.
    While some of the details of the report can only be 
discussed in the classified portion of today's hearing, I also 
want to thank our IGs for releasing an unclassified summary of 
their findings. That summary will better inform the American 
people. I hope it will also serve to reassure our citizens that 
their Federal authorities are working tirelessly and learning 
from what worked and what did not, not only in the run-up to 
the tragedy but also in its aftermath, in order to improve our 
ability to prevent future attacks from occurring.
    I believe there are at least two key findings in the report 
by our Inspectors General. First, the IGs found that Federal 
agencies generally did share information with one another and 
they followed the appropriate procedures that were put in place 
after 9/11.
    And, second, the Inspectors General identified a number of 
adjustments and refinements that should be made to further 
improve our intelligence and information sharing systems. It 
appears unlikely, however, that any of these changes could have 
prevented the attack.
    Still, I was struck by the passages in the report detailing 
the fact that if the Federal Bureau of Investigation (FBI) 
personnel had received more explicit information from a foreign 
government about Tamerlan Tsarnaev's apparent interest in 
committing acts of terror, the FBI would likely have taken 
additional steps to learn more about him and his intentions. I 
plan to explore this conclusion further today with our 
witnesses.
    Meanwhile, let me say that I am pleased to learn through 
this report that U.S. security intelligence agencies have 
already begun addressing some of the issues identified in the 
report and in other after-action reports, and the Inspectors 
General have also put forward two recommendations for further 
strengthening and improving terrorist-related information 
sharing practices. We look forward to having a discussion about 
these findings and these recommendations today, and I also look 
forward to the opportunity to discuss the refinements that 
agencies have already begun making in the classified briefing 
that the Committee will hold with the agencies after this 
hearing.
    Again, we thank you all for joining us and I am pleased to 
turn the microphone over to Dr. Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Mr. Chairman.
    First of all, I want to welcome each of you and tell you, 
first of all, how much we appreciate the important work that 
you do, the independence of what you do, and also to express 
that we have confidence in you. So, thank you, one, for what 
you are doing, and two, we appreciate the importance of this 
second eye looking inside the agencies.
    The purpose of this morning is not to be a Monday morning 
quarterback, and most of my questions are going to be only 
asked in the classified setting. I think your report raises a 
lot of questions. I take a little bit different look at it than 
Senator Carper does. And the other thing is, it makes only two 
very modest recommendations, and I want to probe those as we 
get into the classified briefing. But, I would highlight a few 
issues for the public for the benefit of this open hearing.
    First is the FBI should review its internal procedures for 
information sharing and investigations. Sitting on the Senate 
Intelligence Committee and this Committee gives me additional 
information that there are some areas there I think we need to 
discuss, and we will do that in the closed hearing.
    Second, I think we did do some information sharing, but I 
think one of the things that is obvious is we could have done 
better, and that is the Intelligence Community as a whole in 
terms of information sharing.
    And then, finally, one of the things that I think we have a 
weakness is in terms of sharing information accurately and 
adequately with local law enforcement, and also creating a 
receptivity to where we can get information from them, making 
it easy for that information to flow.
    So, I want to thank you for your hard work. I look forward 
to the discussion. And, as I stated, most of my questions will 
be in the closed hearing.
    Chairman Carper. OK. Thank you, Dr. Coburn.
    I want to welcome Senator Johnson and Senator Ayotte. Thank 
you both very much for being here today and for participating 
with us.
    Some brief introductions, if I could, and then we will turn 
it over to our witnesses.
    Charles McCullough is the Inspector General for the 
Intelligence Community (IC). He is responsible for overseeing 
the work of a number of intelligence agencies, including the 
National Counterterrorism Center (NCTC) and the Office of the 
Director of National Intelligence (ODNI). Welcome.
    John Roth, who was recently confirmed, came here before us 
not that many months ago as a nominee, and we are happy to see 
you confirmed and on the job as the Inspector General of the 
Department of Homeland Security. As such, his office is 
responsible for overseeing the work of the U.S. Customs and 
Border Protection (CBP), U.S. Citizenship and Immigration 
Service (USCIS), among other components.
    Michael Horowitz--nice to see you, Mr. Horowitz--is the 
Inspector General of the Department of Justice (DOJ) and is 
responsible for overseeing the FBI and other key law 
enforcement agencies.
    And David Buckley, the Inspector General of the Central 
Intelligence Agency (CIA), is a key member of the U.S. 
Intelligence Community.
    I think my notes here say Mr. McCullough will provide an 
opening statement on behalf of all the IGs. He has been the 
Inspector General for the Intelligence Community, I think, 
since November 2011. We thank you again, all, for joining us. 
We look forward to your testimony and for a chance to ask some 
questions. Please proceed.

TESTIMONY OF THE HONORABLE I. CHARLES MCCULLOUGH III, INSPECTOR 
 GENERAL OF THE INTELLIGENCE COMMUNITY, OFFICE OF THE DIRECTOR 
  OF NATIONAL INTELLIGENCE; ACCOMPANIED BY THE HONORABLE JOHN 
ROTH, INSPECTOR GENERAL, U.S. DEPARTMENT OF HOMELAND SECURITY; 
  THE HONORABLE MICHAEL E. HOROWITZ, INSPECTOR GENERAL, U.S. 
  DEPARTMENT OF JUSTICE; AND THE HONORABLE DAVID B. BUCKLEY, 
       INSPECTOR GENERAL, CENTRAL INTELLIGENCE AGENCY\1\

    Mr. McCullough. Thank you, Senator. Chairman Carper, 
Ranking Member Coburn, and distinguished Members of the 
Committee, thank you for holding this hearing and for the 
opportunity to discuss the conclusions of the review we 
conducted over the last year.
---------------------------------------------------------------------------
    \1\ The prepared joint statement of the Inspectors General appears 
in the Appendix on page 21.
---------------------------------------------------------------------------
    We share yours and the Committee Members' deep sympathies 
for the victims and their families. As we know, on April 15, 
2013, two pressure cooker bombs placed near the finish line of 
the Boston Marathon detonated within seconds of each other, 
killing three, maiming many, and injuring more than 200 people. 
Shortly thereafter, law enforcement officials identified 
brothers Tamerlan and Dzhokhar Tsarnaev as primary suspects in 
the bombings. After an extensive search for the suspects, law 
enforcement officials encountered the brothers in Watertown, 
Massachusetts. Tamerlan Tsarnaev was killed during the 
encounter, and Dzhokhar Tsarnaev, who fled the scene, was 
apprehended the following day and remains in Federal custody 
awaiting trial.
    In the days that followed, Members of Congress asked 
questions of the FBI Director, the Director of National 
Intelligence (DNI), and other Government officials about the 
handling and sharing of information by the U.S. Government 
concerning Tamerlan Tsarnaev prior to the bombings. With the 
DNI's support, the Inspectors General of the Intelligence 
Community, the Central Intelligence Agency, the Department of 
Justice, and the Department of Homeland Security determined to 
conduct a coordinated review of the handling and sharing of the 
information available to the U.S. Government prior to the 
Boston Marathon bombings.
    Our review had three objectives. First, to determine the 
extent of the information available to the U.S. Government 
regarding these individuals and events preceding the Boston 
Marathon bombings. Second, whether the sharing of information 
was complete, accurate, and in compliance with U.S. 
counterterrorism and information sharing policies, regulations, 
and U.S. laws. And, third, whether there were weaknesses in 
protocols and procedures that impact our ability to detect 
potential threats to national security.
    In order to satisfy these objectives, we looked at three 
distinct areas of scope. First, we examined the information 
that was known to the U.S. Government prior to the bombing. 
Second, we examined any information that existed within the 
U.S. Government's reach before the bombing, but had not been 
obtained, accessed, or reviewed until after the bombing. And, 
third, we examined whether U.S. Government officials reasonably 
could have been expected to have known this information existed 
prior to the bombing.
    For nearly a year, the inspectors, investigators, and 
auditors of our offices combed through thousands of documents 
and interviewed more than 150 witnesses. Due to the classified 
subjects and detailed accounting of interactions between the 
Intelligence Community and law enforcement agencies, the full 
results of our review are in a classified report that has been 
submitted to the Congress. We also thought it extremely 
important to publish an unclassified summary that we submit for 
the record.
    Overall, we found no basis to make broad recommendations 
for changes to U.S. Government procedures for information 
handling and sharing because we found the FBI, CIA, DHS, and 
NCTC generally shared information and correctly followed 
procedures. We did find some specific areas where broader 
information sharing between agencies may have been required or 
where broader information sharing in the future should be 
considered.
    As a result, we made two recommendations to enhance the 
Joint Terrorism Task Force (JTTF) alert procedures and expand 
the FBI's sharing of threat information with State and local 
partners. However, in this particular case, we found that 
broader information sharing likely would not have resulted in 
providing additional helpful information to the FBI.
    We also found that given the limited information available 
to the Boston JTTF in March 2011 concerning Tamerlan Tsarnaev, 
the FBI's decision to open the matter at the assessment level 
of investigation was an application of the least intrusive 
method principle within its investigative discretion. Because 
the lead included information about Tsarnaev's mother, Zubeidat 
Tsarnaeva, we believe the FBI should have given greater 
consideration to opening an assessment on her. However, given 
the bulk of the derogatory information in the lead focused on 
Tamerlan Tsarnaev, we concluded that it was within the FBI's 
discretion not to open an assessment on Zubeidat Tsarnaeva.
    We also concluded that additional investigative steps by 
the FBI would have resulted in a more thorough assessment, 
including conducting additional database searches, asking 
questions of Tsarnaev and his parents to elicit information 
about any plans he may have had to travel to Russia, as well as 
interviewing his former girlfriend and wife. However, we 
determined that the additional database searches would not have 
revealed any information that was not already known to the FBI 
agent conducting the assessment. In addition, we found that it 
is impossible to know what the former girlfriend and wife would 
have told the FBI in 2011, before the Boston Marathon bombings, 
and while Tsarnaev was still alive. Therefore, it cannot be 
known whether these additional interviews would have yielded 
additional information relevant to lead information from the 
Russian government.
    With respect to post-assessment activities, we believe that 
Tamerlan Tsarnaev's travel to Russia in 2012 was significant 
and warranted further FBI investigative action, although we 
determined that none was taken. That said, we believe it is 
impossible to know what would have happened had different 
investigative judgments been made prior to the bombings.
    Finally, we concluded that DHS generally followed 
procedures and policies when adjudicating the Tsarnaev family's 
immigration benefits and screening the family's travel.
    This review, which was conducted across four separate IG 
offices, is precisely the type of coordinated work that the 
Congress expected when it created the Intelligence Community 
Inspectors General Forum. Collectively, we broke new ground in 
many areas of cooperation, and as a result, there is today far 
stronger independent oversight of the Intelligence Community.
    On behalf of my fellow Inspectors General, I would like to 
thank the Committee for its continued support and for the 
opportunity to have this important public discussion. We owe it 
to the Nation and especially those victims and families 
directly affected by the bombings to openly discuss what we 
have learned in this review.
    Also deserving of our thanks are the agency directors whose 
support reflects their shared belief in independent and 
objective analysis.
    Last, I would like to express my gratitude for the men and 
women within our offices who over the past year painstakingly 
reviewed mountains of data and conducted dozens of interviews. 
Their diligence and objectivity exemplify professionalism and 
excellence in service to our country.
    This concludes my remarks. I look forward to answering your 
questions.
    Chairman Carper. Thanks so much, Mr. McCullough. I 
certainly want to agree with your last part of your statement 
very much. Thank you.
    Mr. McCullough. Thank you, sir.
    Chairman Carper. As I mentioned earlier in my opening 
statement, I think it appears that one of your key findings is 
that during--this would be really for you, Mr. McCullough, this 
question--but one of your key findings is that during the lead-
up to the attack, the U.S. agencies you oversee correctly 
followed their procedures when they investigated, ultimately 
cleared, and later shared information about Tamerlan Tsarnaev. 
Would it be fair to say that while some elements of our 
information sharing system could have been improved, there was 
no silver bullet available to U.S. authorities that would have 
allowed us to avert the attack?
    Mr. McCullough. Yes, Senator, that would be fair to say, 
that there was no silver bullet. There was no one single event 
that we uncovered that we believed would have prevented these 
attacks.
    Chairman Carper. OK. Do any of our other witnesses want to 
comment on this, on that first question?
    [No response.]
    OK. Again, this would be for Mr. Horowitz, if I could. Mr. 
Horowitz, your report also seemed to indicate that if the 
Russians or any foreign intelligence partners had shared more 
specific information, the FBI likely would have dug deeper and 
been able to use more of the tools in their toolbox. It seems 
to me that getting additional intelligence from foreign 
authorities might have been the only key factor that could have 
helped to prevent this attack from occurring. Are those fair 
characterizations of your findings?
    Mr. Horowitz. I think it is fair to say, Mr. Chairman, that 
that would have been, as we indicated, an important piece of 
information, and as we outlined the requests that were made by 
the FBI to the foreign entity, there were several other items 
that we identified in the report that the FBI could have 
followed up on, including, in particular, the travel that was 
identified of Tamerlan Tsarnaev to Russia.
    Chairman Carper. All right. This would be a question for 
all of our witnesses. Mr. Roth, if you would like to lead off 
on this, you are welcome to. But, this is a question on how to 
improve information sharing. Our system for preventing 
terrorist attacks cannot and should not depend on the 
willingness of foreign governments to share information with 
us. Your review found that many actions taken were appropriate 
and in accordance with policy. For example, two of the 
Department of Homeland Security's key agencies, U.S. 
Citizenship and Immigration Services and U.S. Customs and 
Border Protection, appropriately adjudicated immigration 
applications for the Tsarnaev family and tracked Tamerlan's 
travel to and from Russia.
    And this attack shows we can do better. Could you please 
take a minute to highlight for our Committee what the FBI, the 
Intelligence Community, and the Department of Homeland Security 
should be doing in the future to prevent this kind of attack 
and which of these steps have already been taken.
    Mr. Roth. Thank you for the question, Senator. Certainly, I 
think that in any situation like this, there is room for 
improvement. One of the things that we discovered in the course 
of our analysis is that immediately after the bombing, when the 
facts were discovered, both CBP as well as USCIS, speaking just 
for DHS, engaged in an after-action sort of look-back to see 
what it is that we could be doing better.
    One of the things that particularly CBP found was the 
outbound analysis of the Tsarnaev's travel--Tsarnaev, as the 
report says, was on a specific list, a fairly long list. The 
outbound CBP inspectors did not have the opportunity to engage 
in an outbound inspection of him. They were unaware, for 
example, that there was a specific alert that had been placed 
within the DHS data systems Treasury Enforcement Communications 
System (TECS) to do so.
    So, one of the things they have fixed as a result of this 
incident, independent of the IG investigation, was to ensure 
that those outbound inspectors now take a look at the 
underlying documentation on each individual within a list of 
people to look at for outbound.
    Chairman Carper. All right. Let me ask each of our other 
IGs to respond to the same question, if you would, please.
    Mr. Horowitz. From the FBI's standpoint, I think there were 
a couple of places where the information sharing as well as the 
followup could have been better. We identify them. Again, the 
most significant being the travel that occurred in January 
2012. We were unable to definitively determine, for example, 
when the notice went to the CBP agent, whether that information 
was passed to the FBI agent. We concluded it likely did happen, 
based on the information we had, but that was largely based on 
a practice of a CBP agent putting a sticky note on an FBI 
agent's desk in that instance, and that should not be the way 
information is passed. There has apparently been followup on 
that and improving that information system flow so there is 
documentation of those notices.
    But also in this instance, when Tsarnaev traveled to 
Russia, that was the basis for the Russian notice to us and the 
request to us. There was not further followup on that by the 
FBI, and that was, as we noted, a significant incident.
    Chairman Carper. All right. I would welcome any comments 
you have, Mr. Buckley, on the same question, please.
    Mr. Buckley. Thank you, Mr. Chairman. I think that when we 
talk about the information that was shared between the CIA and 
the law enforcement/Homeland Security elements of the U.S. 
Federal Government, we did not find anything from a sharing 
standpoint that could be improved upon. What I would like to do 
in the closed session that follows is talk about some specifics 
regarding some things that the CIA may have been able to 
provide in addition and perhaps some greater collaboration at 
the worker level.
    Chairman Carper. And, Mr. McCullough, would you respond to 
the same question, and then I am going to yield to Dr. Coburn.
    Mr. McCullough. Mr. Chair, I think the same thing as Mr. 
Buckley just said. I would have some comments on that in the 
closed session.
    The one thing I could say in the open session with respect 
to the NCTC, there has been an enhancement of the data input 
into certain Terrorist Identities Datamart Environment (TIDE) 
so that there is more complete data there now than there was, 
and that has already been accomplished since the bombing.
    Chairman Carper. All right. My thanks to each of you. Dr. 
Coburn.
    Senator Coburn. I just have one question for the open 
session, and it is when we have people who immigrate here under 
an asylum visa and come and then we see returning to the areas 
from which they sought asylum from, do we have any method at 
all which raises a flag that says, you came here seeking asylum 
from persecution in X country and now you are going back to X 
country. Is there anything in our system, anywhere, that raises 
that up, because if, in fact, you are seeking asylum, the last 
thing I would think is you are going back to the place from 
which you sought asylum. Do we have anything that we can talk 
about in open session?
    Mr. Roth. Senator, you raise a very good question. That is, 
unfortunately, beyond the scope of what it is that we looked at 
during the course of our inquiry here, but you do raise a very 
good question.
    Senator Coburn. Well, I do not think that----
    [Comments off microphone.]
    Never mind. I cannot finish this line of questioning in 
open session.

              OPENING STATEMENT OF SENATOR AYOTTE

    Chairman Carper. Senator Ayotte.
    Senator Ayotte. Thank you. I want to thank all of you for 
being here.
    This is obviously a very important topic, and certainly 
where I live in Nashua, New Hampshire, is 45 minutes away from 
where these bombings occurred. And, in fact, a lot of the law 
enforcement officers in New Hampshire went down--the Manchester 
Special Weapons and Tactics (SWAT) Team, the Nashua Special 
React Team, the New Hampshire State Police and Seacoast 
Emergency Response Team. And, of course, so this is local for 
us. In fact, Jeff Bauman, who is really a hero in these 
circumstances, his family lives in New Hampshire and he was 
heroic that day, and everything that he suffered, and all of 
the victims. So, I really appreciate the work that you have 
done on this because this is incredibly important for the 
country.
    I wanted to ask about, first of all, the JTTF issue. When 
Boston Police Commissioner Ed Davis came before our Committee, 
that was where he focused his attention. He was very concerned, 
and I know you have talked about it in your report, as well, 
about the fact that on the JTTF Task Forces--and I served as 
State Attorney General, so I worked with that Task Force in 
that capacity--that it was too much of a one-way street. In 
other words, the information coming in was not then 
communicated downward. And, as all of you know, it is really 
the line police officers on the street that are likely to 
encounter this type of individual first.
    So, can you help us understand, what improvements have been 
made at this point with regard to JTTF communication issues in 
terms of the type of back and forth that Senator Coburn also 
talked about and are necessary to make sure that that 
information first flows downward, but then also flows back 
upward once that police officer on the ground receives 
information.
    Mr. Horowitz. Let me take that, first, at least. Senator, 
it is an important part of this report and our finding, and we 
had the good fortune and benefit of hearing from Commissioner 
Davis in the course of our work, who described to us many of 
his concerns that you have outlined.
    One of the things we noted specifically in our report was 
the failure of the FBI, when an incident or issue like this 
came up as to a person, to alert those local officers, the 
community that could be impacted by an individual like that, 
both from the standpoint of learning if they had information 
back, but also allowing them to be prepared if there were any 
particular issues or concerns.
    We also heard from Commissioner Davis about the concern 
that the information was flowing one way, but also that there 
was a general attitude on the JTTF that you only gave 
information to the locals if there was a need to know, not as 
part of a routine relationship, not as something that occurred 
regularly, but on a need to know basis. The likelihood was that 
unless it was very clear there was a need to know, that was not 
happening as frequently as it could.
    We understand that the FBI has sent memos out and is 
addressing that now. That is a recommendation we have made and 
that is something we will be following up on.
    Senator Ayotte. So, they are already taking steps to 
implement better information sharing?
    Mr. Horowitz. We have been told that, and as we do in all 
of our work, we will followup and make our own conclusion on 
whether that has been effective.
    Senator Ayotte. Well, I will tell you this, that the memo 
is important, but it is also the attitude. So----
    Mr. Horowitz. Right.
    Senator Ayotte [continuing]. Having worked in cases where 
it is Federal, State, local, sometimes county, as well, the 
attitude, I think, that we need to get at, that is the pre-9/11 
attitude of we are going to hold this information in as the 
FBI, as opposed to really realizing that we have all these 
partnerships of people who are on the street every day that can 
help us and we can work together.
    And so I have talked to Director Jim Comey about this, and 
I am hoping that in addition to changes in policy, that it is 
really an outreach issue by the FBI to reach out to the heads 
of the JTTFs as well as the local officers to really say, we 
get it. We really understand how important this is in terms of 
preventing terrorist attacks and other types of criminal 
behavior even beyond terrorism. So, I think that that attitude 
issue, I would love to see, as you look at this issue in the 
followup with the FBI, what is it that the local officers feel 
has been the attitude change on the ground, because that is 
what is going to make the biggest difference here.
    Mr. Horowitz. Right. And that is what Commissioner Davis 
mentioned, as well, and it clearly is the culture of the 
organization and the culture of the relationship that is 
critical. You can put all the rules in place that you want, but 
if folks do not feel like they should be talking to one 
another, it just will not happen.
    Senator Ayotte. Can I also suggest that engaging the U.S. 
Attorneys and also engaging the Attorneys General on this, at 
the State law enforcement level, at the Federal level, because 
I know when I served as our Attorney General, I had the role of 
being a chief law enforcement officer, so I could get very much 
my message across in meetings I had with law enforcement about 
how we were going to emphasize these issues. So, I think this 
has to be a holistic approach where you are also engaging the 
prosecutors they work with on a regular basis to say, hey, this 
is important and this attitude is what is going to help us 
protect America, working together. So, I appreciate that 
emphasis.
    One thing I looked at that is--I am trying to understand, 
and to the extent that you are able to answer this in the open 
setting, but this followup issue on the CBP and as they notify, 
you said it was done with a sticky note, basically, the trip to 
Russia by Tsarnaev. Those procedures, as I understand it, have 
now been changed and formalized, is that right?
    Mr. Horowitz. That is correct, Senator.
    Senator Ayotte. So, the question I have is, assuming that 
formal designation, how does the FBI then determine whether 
there will be a followup? Is there a procedure there? Is there 
a standard there that we can understand when the FBI is 
actually assuming formal notification from CBP, as they should 
be, not with some sticky----
    Mr. Horowitz. Right.
    Senator Ayotte [continuing]. So that is a very important 
improvement. Then, will they make the decision on, we have to 
go, then, do some more investigative work.
    Mr. Horowitz. As it was then--as I believe it still 
remains--it is the agent who gets notified and it is their 
responsibility to make a determination as to whether to 
proceed. I think there is a strong argument to be made that in 
that situation, an agent should, at a minimum, be consulting 
with their supervisor when, particularly in an instance like 
this, the nub of the information sent to the FBI by the Russian 
authorities was, he is going to travel to Russia to join these 
groups, as we outline here. That is precisely what he did in 
January 2012 in terms of at least the travel. We do not know 
what he did there. But as to the information that went to the 
FBI, that he is going to travel to Russia, that is exactly what 
information was learned because of the ping and the notice that 
went on.
    Senator Ayotte. Absolutely, this seems like pretty 
compelling information from the Russians. So, I would hope that 
it would not just be left with the discretion of the agent, 
that you actually would have some type of consulting to make 
sure that in those circumstances, we do have a followup 
investigation that needs to be conducted to find out what his 
activities were in Russia, and, in fact, did he meet with these 
groups that are associated with terrorist activities, because 
that would have probably changed, to some extent, the prism 
upon which he was viewed.
    Mr. Horowitz. Correct. That is correct, because it also, in 
part, corroborated the information that had been sent to the 
FBI, so it demonstrated some credibility on that information. 
It could have resulted in additional followup within the United 
States. It also could have resulted in a notice to the foreign 
country, to Russia, in response to the information they had 
sent to us.
    Senator Ayotte. Thank you very much. I know my time is up, 
and I think this is a very important issue. I want to thank 
both the Chairman and the Ranking Member for holding this 
hearing and for the work done by the investigators, all of the 
Inspectors General here. Thank you.
    Chairman Carper. Thanks for those questions.
    I want to be sensitive to what you can say in a public 
setting and what you cannot, but I have a couple questions that 
relate to Mrs. Tsarnaev, and to the extent that you discuss her 
role in all of this and that you can share with us in a public 
setting, I would welcome that. I have a couple of specific 
questions, but are there any more general comments you would 
like to make about how you address her role in all this that 
you can share with us in a public setting?
    Mr. Horowitz. Well, I will just say, the one thing that we 
can say from the standpoint from what we looked at, the lead 
information included information about her, not just Tamerlan. 
The judgment was made to only look at--to only open on 
Tamerlan, but we found there was certainly sufficient 
information, if the FBI had wanted, to open on her, as well, 
that they could have done so. They made the judgment not to, 
and that was a decision made right at the outset, in March 
2011.
    Chairman Carper. OK. Others, please.
    Mr. McCullough. I would agree that there was information 
that we found when we examined the post-bombing information 
that was collected, and I think probably that would have to be 
discussed in the classified session. But, there was information 
that we found post-bombing that would relate to that, Senator.
    Chairman Carper. Mr. Buckley.
    Mr. Buckley. Mr. Chairman, I, too, have information that I 
will impart in the closed session regarding this.
    Chairman Carper. All right. Let me ask a couple of followup 
questions, more specific followup questions. If you can respond 
to these in an open setting, that is fine. If you cannot, we 
will ask them again in a closed setting.
    But, looking back, it seems that one of the key moments in 
the case occurred when the FBI's initial investigation into 
Tamerlan concluded that he did not pose a threat to the United 
States. Can you give us your assessment of whether or not the 
FBI's investigation of Tamerlan and his mother was thorough 
enough. Mr. Horowitz.
    Mr. Horowitz. Yes. I think we found there were several 
steps that could have been taken that would have made it more 
thorough, among them, doing additional database searches. On 
that, we were able to go back and do those ourselves and 
concluded there actually was not much there in the databases 
that would have been helpful, but nevertheless believed a more 
thorough assessment would have included those database 
searches.
    There could have been interviews of his then-wife, his ex-
girlfriend, who had filed charges against him, as well as 
questioning both him and his parents about the specific 
allegations that had come in from the Russian authorities, 
again, particularly the travel that was known about back in 
March 2011, before the assessment was closed and before later 
learning that the travel had actually been undertaken.
    Chairman Carper. OK. Let me just do a followup on that, Mr. 
Horowitz, if I could. While the Russians did not provide us 
with a whole lot of information, they did warn that both 
Tamerlan and his mother were adherents to radical Islam, as I 
recall. However, the report states that a separate 
investigation was not opened on Tamerlan's mother. Do you 
think--and we have talked about this a little bit, but I want 
to come back to it--do you think that this was an appropriate 
decision by the FBI, and should the FBI be permitted to 
exercise this type of discretion in opting to open or not open 
cases?
    Mr. Horowitz. From our standpoint, we think that more 
consideration should have been given to opening an assessment 
on Zubeidat, as well as Tamerlan. The explanation given to us 
was that the information largely focused on Tamerlan and the 
judgment was made, therefore, to open only on Tamerlan. Based 
on the rules in place and the FBI procedures, that was a 
judgment they made that was within their authority to make. 
Again, I think, from our standpoint, the supervisor should 
have--and this is really a supervisor decision--should have 
given more consideration to opening on her.
    Chairman Carper. All right. If I could, Mr. Buckley, a 
different question, please. Two agencies, the FBI and the CIA, 
received the same initial information from Russian authorities, 
but only the CIA decided to nominate Tamerlan for the Terrorist 
Watch List, as I recall. I understand the reasons for this is 
specific and classified, but I wanted to ask both you and maybe 
Mr. McCullough, if I could, if there was anything you believe 
intelligence agencies can or should do to make these decisions 
in a more collaborative way so that we can ensure that everyone 
is working off the same information.
    Mr. Buckley. Mr. Chairman, the answer to your question is 
yes. As I indicated earlier, beyond information sharing, we did 
identify opportunities where, had there been further 
collaboration, person-to-person, office-to-office, speculating, 
it might have led to a different decisionmaking matrix.
    Chairman Carper. All right. Thank you. I am going to ask 
one more question, and then I am going to yield back over to 
Senator Ayotte for additional questions that she might have.
    Mr. Horowitz, this will be a followup question regarding 
discretion to determine the type of FBI investigation. Your 
report notes that the FBI and the Joint Terrorism Task Force 
agents have some discretion to determine what level of 
investigation to open on a person of interest and typically try 
to use a standard, I think it is called the least intrusive 
method. Could you explain why that discretion and standard are 
important.
    Mr. Horowitz. Under the FBI's Domestic Investigations and 
Operations Guide (DIOG), which is the manual that they use to 
consider what level of assessment to undertake, there are three 
choices. There is an assessment, which is what was done here, 
the next step up being a preliminary investigation, and the 
third step being a full investigation, the latter two requiring 
some predication to do those steps. The FBI's manual informs 
their agents and supervisors to choose the least intrusive 
method, recognizing that they might have more than one choice. 
And in this case, the agent and the supervisor both told us 
they chose as the least intrusive method the assessment.
    It is important to note that none of the steps I indicated 
that could have been taken to make it a more thorough 
assessment were in any way limited by that choice. So, the fact 
that it was an assessment still allowed the steps to be taken. 
And, similarly, had there been an interest in following up on 
the travel in January 2012, that could have been done even at 
the assessment level and allowed a determination to be made 
then whether to escalate it to a preliminary investigation or a 
full investigation.
    Chairman Carper. OK. Thanks. Senator Ayotte.
    Senator Ayotte. I just had one followup to the Chairman's 
question regarding better collaboration between the CIA and 
FBI. One thing that leapt out at me on this that has bothered 
me is that the FBI receives information from the Russian 
Federal Security Service (FSB), the Russian intelligence 
agency, and the FBI follows up, does their assessment, finds no 
nexus with terrorism. Then, of course, we have been talking 
about the fact that then Tsarnaev goes to Russia again and 
there was no followup, which I think we all agree doing a 
followup there would have been important.
    That said, what bothered me, also, was the fact that the 
FBI got this information from the FSB--they get that in March. 
In September, the FSB also reaches out to the CIA. Why is it 
not that the FBI would not notify the CIA in those 
circumstances as opposed to having a foreign government, 
waiting for them to actually notify an agency, a separate 
agency within our own government? That really leapt out at me 
and it bothered me, and can you help us understand that?
    Mr. Horowitz. Yes. I agree, Senator. As we noted in the 
report, that was a failing of the sharing that occurred. The 
FBI should have alerted in March 2011, when they learned this 
information, their counterparts at the CIA. They did not do 
that. Ultimately, the Russian authorities did do that in 
September 2011, and as we later learned, because of that 
notice, the CIA did not have--the delay in that notice did not 
have an impact on the assessment, ultimately. But, 
nevertheless, that notice should have occurred earlier.
    Senator Ayotte. Is there now a procedure in place that 
would have a more formal notification process between the FBI 
and the CIA, because you can see a scenario where this type of 
situation could make a very significant difference.
    Mr. Horowitz. There is already, a memorandum of 
understanding (MOU) in place that should have been followed 
here that----
    Senator Ayotte. It just was not followed.
    Mr. Horowitz. So, what is required here is further training 
and an understanding among FBI that they need to do that, and, 
in fact, there was one of the three followups that they did 
that went to the FSB, they did not notify the CIA of that. That 
was another place where that notification should have occurred.
    Senator Ayotte. Well, this is, I think, important, because 
we have the issue of Federal, State, local information sharing, 
but also information sharing, of course, thinking after 9/11, 
the improvements and work we have done to make sure our own 
agencies are sharing. So, I hope that there will also be an 
emphasis on this as we look at the followup to this to make 
sure that the procedures are being followed or that the people 
understand what their responsibilities are. Thank you.
    Chairman Carper. Mr. McCullough, if I could, maybe one or 
two more and then we will wrap it up here. But, if the Russians 
had not shared their initial tip, would we have had any way to 
detect Tamerlan's radicalization?
    Mr. McCullough. There were----
    Chairman Carper. What I am going to get at here is just 
homegrown terrorism and our ability to ferret them out-----
    Mr. McCullough. Right.
    Chairman Carper [continuing]. And understand what is going 
on, if someone is being radicalized, and what its implications 
might be for us.
    Mr. McCullough. Well, the Bureau's actions stem from the 
memo from the FSB, and so that led to everything else in this 
chain of events here. You are saying, if that memo did not 
exist, would he have turned up some other way? I do not know. I 
think in the classified session, we can talk about some of the 
post-bombing forensics and what was found and that sort of 
thing and you can see when that radicalization was happening.
    And so I would think that this would have come up, yes. At 
some point it would have presented itself to law enforcement 
and to the Intelligence Community, possibly not as early as the 
FSB memo, it did not. But, I think that it would have come up 
at some point, noting what we found post-bombing.
    Chairman Carper. Sometimes we ask people, and sometimes 
they ask us what keeps us up at night, and one of the things 
that keeps me up at night is concern about homegrown 
radicalization. It is one thing to have folks in other parts of 
the world who want to do us harm, and it is hard enough to find 
out about that and to track and to deter, to counter it. But, 
it is another kettle of fish when the threat comes from within.
    And, the question I will ask here--and if you feel 
comfortable in answering it here, fine, if not, we will get 
into it in our closed session--but, I would just come back to 
this issue and say, is our counterterrorism and homegrown 
security system capable of detecting and maybe preventing 
attacks like this?
    Mr. McCullough. I believe it is, Chairman Carper. I believe 
it is.
    Chairman Carper. All right. We will drill down on that a 
little bit more in our closed session.
    My last question would be for--and, you all were good 
enough to give us at least one opening statement. I am going to 
ask you each to take maybe a minute and give us a closing 
statement, and what I would like you to focus on in your 
closing statement is I want to look to see where there is 
consensus and agreement on things that we could have done 
better, or lessons learned, things we could have done better. 
Dr. Coburn and I, we are not interested in holding ``gotcha'' 
hearings and Monday morning quarterbacking, but we all are 
interested in finding what we could have done better, and maybe 
just remind us of the areas that we could have done better and 
those where we actually are doing better now and maybe some 
others which are still works in process.
    In fact, let us just go right to that question.
    And, do you want to lead off, Mr. Buckley.
    Mr. Buckley. Sure, Mr. Chairman. I will take a stab at it. 
I think, in this specific case and generally, the agency could 
have done better in looking at certain records that it had that 
might have provided a slightly fuller picture when it made the 
nomination. However, our assessment was that if they had, it 
would not have given that much more information to cause 
anybody to do anything differently. But, they did not, so we do 
recommend that they do check available databases and give a 
more fulsome record when they make such nominations.
    Of course, there is a constant balance and a struggle that 
takes place when you are talking about the CIA and its 
involvement at all and U.S. persons, whether they are citizens, 
naturalized or born, and adverse information that comes from 
foreign governments pertaining to U.S. citizens. So, there is a 
line, and it is blurry, and that requires individual employees 
and their supervisors to make case-by-case determinations on 
what is appropriate and what is not, and so it is very hard for 
the Inspector General--for me, anyway--to look back and say, in 
this case, you should have done that, and in that case, you 
dare not.
    So, this is very much a human enterprise, assisted by 
machines, but the human decision, at the end of the day, is 
what we ought to either stand by or criticize. So, I think that 
a little bit more records checking, making some more fulsome 
disclosures to NCTC, the FBI, and others, as they did in the 
nomination, could be done better. It would not have made a 
difference in this case.
    Chairman Carper. All right. Thank you. Mr. Horowitz.
    Mr. Horowitz. Let me just echo what Mr. Buckley just said. 
Ultimately, on much of what we have talked about on the 
assessment, those were human judgments made by an agent and a 
supervisor, and those judgments are going to be made in 
hundreds, if not thousands, of cases.
    In terms of protocols and sharing and the culture that we 
talked about a little bit earlier, about making sure there is 
that sharing, I think you saw a few things here that are 
indicative of the issues. The State and local issue that we 
talked about--there needs to be a recognition that information 
flow should be both ways and the culture should be one of 
information flow.
    Second, there needs to be following of MOUs within the 
Federal Government, the sharing that could have occurred in 
several places with the FBI and the CIA did not. While it would 
not have had an impact, perhaps, nevertheless, should be 
occurring regularly. That should be one of the first thoughts 
happening, not something that is forgotten about.
    And then, finally, in light of the travel that occurred, 
another place where consideration should have been given to not 
only followup on the travel, but also, again, the question of 
whether that information should have been shared with the 
Russian authorities that had, in fact, sent us the lead about 
that very travel.
    Chairman Carper. Mr. Roth.
    Mr. Roth. DHS had largely a supporting role in the entire 
episode. That being said, there were things that they could 
have done that they, I think, are improving as we speak, one of 
which is assessing the outbound travel to determine whether or 
not individuals ought to be inspected. It is an enormous task. 
A place like John F. Kennedy International Airport has 
something like 13 million passengers in any given year, 200 in-
bound flights per day. So, it is a very difficult situation to 
get right, but certainly, I think, that is an area that could 
use some improvement.
    Likewise, with transliteration of names and matching names 
within a database, here, we had an example of two separate 
entries in which there was a misspelling, that those names were 
not matched. I think there is room for improvement there, 
which, I think, is taking place.
    Chairman Carper. Thank you.
    Mr. McCullough, same question.
    Mr. McCullough. Mr. Chair, just to kind of summarize, we 
did find the information sharing mechanisms in the government 
did work here. Information was shared. There were errors, 
inaccuracies. There may have been a lack of completeness or 
thoroughness with the information that was being shared. But, 
certainly, the institutions and the mechanisms that are in 
place to share the information were doing that.
    Despite everything that occurred between the FSB 
information going to the FBI and then going separately to the 
CIA, the CIA with the NCTC, the TIDE nomination over to the 
Terrorist Screening Center, a parallel track from the FBI's 
JTTF TECS, despite all of this, despite the misspellings or the 
distinct spellings, there were different translations of 
certain pieces of material between different intelligence 
elements, on January 18, when Tamerlan Tsarnaev was going to 
travel to Russia--this is 3 days before his travel to Russia--a 
Customs officer got a ping. Despite all of those errors and 
inaccuracies, the mechanisms worked. That Customs officer was 
notified that this individual was going to be traveling to 
Russia.
    And that was the goal. That is the goal of the information 
sharing. We had a Guardian assessment that occurred, and at the 
end of the day, we would like to know when he is traveling, the 
Customs officer got that ping. I believe the DOJ IG found, as a 
matter of fact, that it is highly likely that that ping, that 
information, was conveyed to the FBI when that occurred.
    And, we can talk about the judgments that were made with 
respect to the action that was taken with that information. 
But, I do think that information was shared here. There were 
some errors. There were some inaccuracies. And we have made 
some recommendations and drawn some conclusions to address 
these. But, at the end of the day, there is not a ``smoking 
gun,'' there is not a single event or a singular event or a 
series of events that we can say, had this happened, that most 
certainly would have changed the scenario here. Had this 
happened, that would have stopped the bombing. We did not find 
anything like that.
    Chairman Carper. All right. Thank you.
    Dr. Coburn, any closing statement you would like to make?
    Senator Coburn. That is all for me. It will be in 
classified.
    Chairman Carper. OK. Let me just wrap up by saying I think 
we have had a productive session here today. A lot of work has 
gone into preparing for this, and we are grateful for that. We 
look forward to moving to a secure setting and to being able to 
ask you a few more questions and for you to be able to share 
with us some information that you are not able to share here.
    I just want to say, though, on the anniversary of the 
Boston Marathon and the running of the marathon earlier this 
month, that our thoughts go back to a year ago and the loss of 
life and injuries, and how the lives of some people were taken 
away and other lives were shattered. But, the crowd that was 
chanting as the runners went through their course and ran--I 
say this as a runner myself, my son is a runner, used to live 
in Boston--I missed qualifying for the Boston Marathon by a 
minute a couple of years ago, by the way--it is one thing to 
take a punch, in this case a sucker punch, and it is another 
thing to bounce back, and, boy, we bounced back. And, I am 
proud for everybody who turned to, in the face of adversity, 
calamity, mayhem a year ago--I am very proud for the way that 
we have demonstrated our strength this year.
    The last thing I would say is, were there some mistakes 
made? Were there some things we could have done better? 
Clearly, there were. We have drilled down on those. We are 
going to continue to drill down on those and make sure we can 
get as close to perfect as we can, and there is a lot riding on 
that.
    With that, we are going to conclude here. The hearing 
record will remain open for 15 days, until May 15 at 5 p.m., 
for the submission of additional statements and questions for 
the record. So, if you get some, please respond to those.
    And with that, we are adjourned at this point in time and 
will reconvene in just a few minutes. Thank you.
    [Whereupon, at 11 a.m., the Committee recessed and 
proceeded to closed session.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
